No. 21-

In the Supreme Court of the United States
JONAS DAVID NELSON, PETITIONER,
v.
STATE OF MINNESOTA
CERTIFICATE OF SERVICE
I hereby certify that, in accordance with Supreme Court Rule 29 and this Court’s
Order of April 15, 2020, all parties required to be served have been served with copies
of the foregoing PETITION FOR A WRIT OF CERTIORARI, via e-mail, this 18th
day of February 2021. All parties had previously consented to electronic service
consistent with this Court’s Order.
Edwin William Stockmeyer, III
Assistant Attorney General
Office of the Minnesota Attorney General
445 Minnesota Street, Suite 1400
St. Paul, MN 55101-2131
ed.stockmeyer@ag.state.mn.us
(800) 657-3787
I declare under penalty of perjury the foregoing is true and correct. Executed on
February 18, 2021.

/s Andrew T. Tutt_____
Andrew T. Tutt
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
andrew.tutt@arnoldporter.com
February 18, 2021

